APPENDIX

ia
TABLE OF CONTENTS
Page
Published Opinion of
The United States Court of Appeals For the Fourth Circuit
Re: Dissenting Criminal Judgment
entered July 31, 2020 .......................................................................................... A
Judgment of
The United States Court of Appeals For the Fourth Circuit
entered July 31, 2020 ......................................................................................... B
Order of
The United States Court of Appeals For the Fourth Circuit
Re: Denying Petition for Rehearing and Rehearing En Banc
entered August 27, 2020 ..................................................................................... C
Judgment of
The United States District Court For The District of South Carolina
entered September 25, 2018 .............................................................................. D
Order of
The United States District Court For the District of South Carolina
Columbia Division
Re: Denying Defendant’s Motion for New Trial
entered September 13, 2018 ............................................................................... E

A

PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4696

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
JOEY LAMOND BRUNSON, a/k/a Flex,
Defendant - Appellant.

Appeal from the United States District Court for the District of South Carolina, at
Columbia. Joseph F. Anderson, Jr., Senior District Judge. (3:14-cr-00604-JFA-18)

Argued: January 29, 2020

Decided: July 31, 2020

Before WILKINSON, NIEMEYER, and MOTZ, Circuit Judges.

Affirmed by published opinion. Judge Niemeyer wrote the opinion, in which Judge
Wilkinson joined. Judge Motz wrote a dissenting opinion.

ARGUED: David Bruce Betts, Columbia, South Carolina, for Appellant. Thomas Ernest
Booth, UNITED STATES DEPARTMENT OF JUSTICE, Washington, D.C., for
Appellee. ON BRIEF: Brian A. Benczkowski, Assistant Attorney General, Matthew S.
Miner, Deputy Assistant Attorney General, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C.; Sherri A. Lydon, United States Attorney, Columbia, South
Carolina, J.D. Rowell, Assistant United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Denver, Colorado, for Appellee.

NIEMEYER, Circuit Judge:
Joey Brunson, the defendant in this criminal prosecution, challenges the legality of
three orders authorizing wiretaps on the ground that the orders did not, on their face,
sufficiently identify the persons authorizing the applications for the orders, as required by
law. The district court denied his motion to suppress evidence obtained from the wiretaps,
and the evidence was used to convict Brunson of numerous drug-trafficking and related
crimes.
Title III of the Omnibus Crime Control and Safe Streets Act of 1968 (“the Wiretap
Act”), 18 U.S.C. § 2510 et seq., authorizes federal judges to issue orders approving
wiretaps when detailed statutory requirements are met. And it provides that when certain
specified requirements are not met, the contents of any intercepted communications and
evidence derived from them must be suppressed. Id. §§ 2518(4)(a)–(e); § 2518(10)(a).
The Wiretap Act authorizes the Attorney General and various other designated
officials in the Department of Justice, including any Deputy Assistant Attorney General in
the Criminal Division or National Security Division, to apply for a wiretap order, and it
requires that the application for the order include the “identity of . . . the officer authorizing
the application,” 18 U.S.C. § 2518(1)(a), and also that the order authorizing the wiretap
“specify . . . the identity of the agency authorized to intercept communications, and of the
person authorizing the application,” id. § 2518(4)(d).

Failing the inclusion of this

information, the order becomes “insufficient,” and evidence obtained from the wiretap
must be suppressed. See id. § 2518(10)(a)(ii).

2

In this case, the government identified in each application for a wiretap order the
senior Justice Department official by title and name who authorized the application, but in
each proposed order that it submitted to the district court, it included only the title, not the
name of the official. Each order stated that the application for the order was authorized by
“an appropriate official of the Criminal Division, United States Department of Justice,
Deputy Assistant Attorney General, pursuant to the power delegated to that official by
special designation of the Attorney General.” The district court signed the order as
submitted.
Brunson contends that because the orders did not include the name of each
authorizing official, the orders were statutorily insufficient and therefore all evidence
derived from them should have been suppressed. Accordingly, he argues that the district
court erred in denying his motion to suppress.
We conclude that the wiretap orders were sufficient under the Wiretap Act because
(1) the applications were in fact appropriately authorized by persons authorized by the
Wiretap Act; (2) the orders on their face identified, albeit not by name, the Justice
Department officials who authorized the applications; (3) the applications themselves, to
which the orders on their face referred, did contain both the title and name of the official
authorizing the application; and (4) the applications and proposed orders were submitted
together as one package to the judge who signed the orders and later to Brunson, whose
communications were intercepted, such that both the judge and Brunson actually knew
both the title and name of the official authorizing each application. In addition, even if we
were to assume that the omission of the name of the authorizing official in the orders was
3

a defect, it would not be the type of defect that rendered the orders “insufficient” under
§ 2518(10)(a)(ii). Therefore, we conclude that the district court did not err in denying
Brunson’s motion to suppress.

I
Joey Brunson was charged with participation in a drug-trafficking conspiracy in
South Carolina and related crimes. In particular, the second superseding indictment, which
the grand jury returned in March 2017, charged Brunson in Count 1 with conspiracy to
traffic five kilograms or more of cocaine and an additional quantity of crack cocaine, in
violation of 21 U.S.C. § 846; in Counts 2–7, with using a telecommunications facility for
drug trafficking, in violation of 21 U.S.C. § 843(b); in Count 8, with conspiracy to commit
money laundering, in violation of 18 U.S.C. § 1956(h); in Count 9, with possession of
cocaine and marijuana with intent to distribute, in violation of 21 U.S.C. § 841(a)(1); in
Count 10, with transporting a firearm by a felon, in violation of 18 U.S.C. § 922(g)(1); in
Count 11, with possession of a firearm in furtherance of drug trafficking offense, in
violation of 18 U.S.C. § 924(c)(1); and in Count 12, with perjury, in violation of 18 U.S.C.
§ 1621.
In 2013, during the investigation that led to Brunson’s indictment, the government
sought judicial authorization under the Wiretap Act to intercept calls and texts over
specified telephones. The first application for a court order disclosed that it was authorized
by Deputy Assistant Attorney General Denis J. McInerney, and the district court issued the
government’s proposed order on July 31, 2013, authorizing the requested wiretaps. The
4

order stated that it was entered “pursuant to an application authorized by an appropriate
official of the Criminal Division, United States Department of Justice, Deputy Assistant
Attorney General, pursuant to the power delegated to that official by special designation of
the Attorney General,” but the order did not include the official’s name. Pursuant to the
order, the FBI intercepted various wire communications, including one on August 6, 2013,
to which Brunson was a party and which became the basis for Count 2.
In a second application submitted to extend the district court’s first order, the
government used the same form as the first application except that it disclosed that the
application was authorized by Deputy Assistant Attorney General Paul M. O’Brien. Again,
the proposed order that the district court signed on August 29, 2013, included O’Brien’s
title but not his name.

Pursuant to the order, the FBI intercepted additional wire

communications, including one on September 3, 2013, to which Brunson was a party and
evidence of which was presented at trial but did not form the basis for any substantive
count.
Finally, the government submitted a third application to extend the district court’s
second order, and again the application was in the same form as the previous two
applications, except that it disclosed that the application was authorized by Acting
Assistant Attorney General Mythili Raman. Again, the proposed order that the district
court signed on October 11, 2013, confirmed that the application had been authorized by
an appropriate official, but did not include Raman’s name. Pursuant to that order, the FBI
intercepted wire communications, to which Brunson was a party, between October 11
through October 24, 2013, which became the basis for Counts 3 through 7.
5

Brunson filed a pretrial motion to suppress the evidence obtained from the
intercepted communications on the ground that each of the district court’s orders
authorizing the interceptions failed to include the name of the official authorizing the
application, and thus each order was “insufficient on its face,” as that phrase is used in 18
U.S.C. § 2518(10)(a)(ii). The district court denied the motion on the ground that the
wiretap orders substantially complied with the Wiretap Act because they were based on
and referred to the applications, which identified the authorizing officials both by title and
name.
The jury thereafter convicted Brunson on all 12 counts of the indictment.
Several months after Brunson was convicted, he filed a motion for a new trial based
on the intervening Supreme Court decision in Dahda v. United States, 138 S. Ct. 1491
(2018), in which the Supreme Court upheld as facially sufficient wiretap orders that
illegally authorized the interception of communications outside the district court’s
territorial jurisdiction. In its opinion, the Court explained that an order would be facially
insufficient if, for example, it “lack[ed] information that the wiretap statute [in
§§ 2518(4)(a)–(e)] require[d] it to include” but that the district court’s territorial
jurisdiction was not required to be included in wiretap orders. Dahda, 138 S. Ct. at 1499–
1500.
The district court denied Brunson’s motion for a new trial, ruling first that the
motion was untimely, as it was filed four months after Brunson’s conviction, and second,
that the Supreme Court’s holding in Dahda did not disturb its pretrial ruling denying
Brunson’s motion to suppress. In addition, the court noted that even though the wiretap
6

orders did not include the names of the officials authorizing the application, the orders
referred to the applications, which did include the names.
On September 24, 2018, the district court sentenced Brunson to life plus 60 months’
imprisonment. From the district court’s judgment dated September 25, 2018, Brunson filed
this appeal, contending that the district court erred in denying his motion to suppress
because the wiretap orders were facially insufficient as they failed to include the names of
the officials authorizing the various applications for the orders.
Almost three months after Brunson was sentenced and while this appeal was
pending, Congress enacted the First Step Act of 2018 (“FSA”), Pub. L. 115-391, 132 Stat.
5194 (Dec. 21, 2018), which authorized some sentence reductions for offenses committed
“before the date of enactment of [the] Act, if [the] sentence for the offense ha[d] not been
imposed as of [the] date of enactment.” FSA § 401(c). Brunson filed a motion in the
district court on February 27, 2019, for a reduction of his sentence based on the FSA, and
on April 10, 2019, the district court denied the motion on the ground that the FSA did not
apply to Brunson because he was sentenced before the statute’s effective date. Brunson
also seeks review of the district court’s denial of FSA relief.

II
A
In support of his argument that the district court erred in denying his motion to
suppress evidence obtained by the wiretap orders, Brunson relies mainly on Dahda v.
United States, 138 S. Ct. 1491 (2018), which was decided after the district court ruled. He
7

argues that Dahda essentially overruled the test that the district court applied to uphold the
wiretap orders. According to Brunson, Dahda recognized that the Wiretap Act must be
enforced as written, and therefore a wiretap order that fails to identify the Department of
Justice official who had authorized the wiretap application, as required by § 2518(4)(d), is
insufficient, and the evidence obtained from the wiretap must be suppressed under
§ 2518(10)(a)(ii).
The government contends that the district court properly denied Brunson’s motion
to suppress because the wiretap orders were not facially insufficient, as the authorizing
officials “were specifically identified in the wiretap applications that accompanied the
orders and were referenced by and incorporated into the orders.” The government argues
further that Dahda, which acknowledges that not all facial defects render an order
insufficient, does not hold otherwise.
The Wiretap Act sets forth in detail procedures for the issuance of orders to allow
the interception of wire, oral, or electronic communications. To obtain a wiretap order
pursuant to the Act, the government must submit an application authorized by an
appropriately designated high-level Justice Department official to a judge of competent
jurisdiction and state the applicant’s authority to make such an application. See 18 U.S.C.
§§ 2516(1), 2518(1). On the basis of the application, the judge must make certain findings
to justify the issuance of the requested order. See id. at § 2518(3) (authorizing the entry of
an ex parte wiretap order if a judge determines, inter alia, that there is probable cause that
an individual is committing, has committed, or is about to commit an offense and that
normal investigative procedures will be unavailing or dangerous). If these requirements
8

are satisfied, the judge may issue an order authorizing the interception of wire, oral, or
electronic communications within the territorial jurisdiction of the court in which the judge
is sitting. See id. The order must specify:
(a) the identity of the person, if known, whose communications are to
be intercepted;
(b) the nature and location of the communications facilities as to
which, or the place where, authority to intercept is granted;
(c) a particular description of the type of communication sought to be
intercepted, and a statement of the particular offense to which it
relates;
(d) the identity of the agency authorized to intercept the
communications, and of the person authorizing the application; and
(e) the period of time during which such interception is authorized,
including a statement as to whether or not the interception shall
automatically terminate when the described communication has been
first obtained.
Id. § 2518(4) (emphasis added).
The Wiretap Act also regulates the use of communications intercepted pursuant to
a wiretap order. Section 2515 provides that “[w]henever any wire or oral communication
has been intercepted, no part of the contents of such communication and no evidence
derived therefrom may be received in evidence in any trial . . . if the disclosure of that
information would be in violation of this chapter.” The Act also authorizes “[a]ny
aggrieved person in any trial” to “move to suppress the contents of any wire or oral
communication intercepted pursuant to this chapter, or evidence derived therefrom, on the
grounds that — (i) the communication was unlawfully intercepted; (ii) the order of
authorization or approval under which it was intercepted is insufficient on its face; or
9

(iii) the interception was not made in conformity with the order of authorization or
approval.” Id. § 2518(10)(a) (emphasis added).
In Dahda, the Supreme Court considered wiretap orders that, contrary to the
Wiretap Act, included an authorization to intercept communications outside the territorial
jurisdiction of the issuing court, i.e., the District of Kansas. To address the consequence
of the defect, the Court looked to § 2518(10)(a)(ii), which requires suppression when a
wiretap order is facially insufficient. See 138 S. Ct. at 1494. And in determining what
makes an order “insufficient,” the Court looked to §§ 2518(4)(a)–(e) (which requires
specific information, but not the order’s territoriality, to be included in an order), but it also
noted that insufficiency would not result from “each and every error that appears in an
otherwise sufficient order.” Id. at 1498. The Court concluded that although the orders
before it did in fact erroneously state the territorial area where they could lawfully be
enforced, that defect did not render the orders facially insufficient. Id. at 1499. The
territorial scope of the orders was evident from the authorizing judge’s territorial
jurisdiction — i.e., the District of Kansas — and the presumption in the statute that limited
the order’s scope to the issuing court’s jurisdiction. Id. The Court “fail[ed] to see how”
the error in describing the territorial scope of the orders “could render the Orders facially
insufficient,” because the information — the erroneous territorial provision — was
“surplus[age]” and was not required. Id.
Since the defect at issue did not implicate the requirements stated in §§ 2518(4)(a)–
(e), the Court did not address the consequence of a technical defect that might arise by a
failure to comply precisely with § 2518(4). Dahda, 138 S. Ct. at 1498. Indeed, it stated
10

specifically that it was not resolving questions such as the consequence of a defect under
§ 2518(10)(a)(ii) based on “identifying the wrong Government official as authorizing the
application.” Id. In short, even though the government relied on courts of appeals cases
holding that defects arising from a failure to comply to the letter with the requirements of
§§ 2518(4)(a)–(e) did not warrant suppression, the Court refused to address the
consequence of such technical defects.
Because Dahda does not address how we, in this case, are to determine whether the
orders’ failure to include the names of authorizing officials renders them “insufficient,” we
must look elsewhere.

B
Brunson’s argument that the orders in this case failed adequately to include the
“identity . . . of the person authorizing the application” for each order, as required by
§ 2518(4)(d), arises from the undisputed fact that, even though each order described the
authorizing person by title, it did not include the person’s name, and reference to the name
in the application for the order was not an identification on the face of the order. He thus
contends that the orders were “insufficient on [their face],” requiring suppression under
§ 2518(10)(a)(ii) of any evidence derived from the wiretaps.
Each order in this case states that it was issued “pursuant to an application
authorized by an appropriate official of the Criminal Division, United States Department
of Justice, Deputy Assistant Attorney General, pursuant to the power delegated to that
official by special designation of the Attorney General.” Thus, while the orders identified
11

the authorizing official by title, they did not include the official’s name, instead referring
to the application where the name was provided. The question that Brunson thus presents
is whether the Wiretap Act requires that orders give the authorizing official’s name. But
his argument addressing that issue reveals that his framing of the issue is in fact incomplete.
Brunson agrees that if the orders stated that the “Attorney General,” without naming
him or her, authorized the application, the order would be sufficient because that title refers
to a unique, identifiable person. At the current time, for example, it is public knowledge,
or at least readily obtainable knowledge, that William P. Barr is the Attorney General.
Based on this logic, other courts have acknowledged that a name is not necessarily required
to provide identification. See, e.g., United States v. Scurry, 821 F.3d 1, 8–9 (D.C. Cir.
2016) (holding that the identification requirement of the Wiretap Act is met “where the
language points unambiguously to a unique qualified officer holding a position that only
one individual can occupy at a time”). Brunson takes a different view, however, when an
order identifies a Deputy Assistant Attorney General in the Criminal Division as the
authorizing official because there are six persons who hold that title. Thus, he maintains
that reference to the “Attorney General,” without naming him is sufficient, but reference
to a Deputy Assistant Attorney General is not. Brunson’s own argument therefore indicates
that the issue of whether wiretap orders meet the identity requirement of § 2518(4)(d) rests
not on whether the authorizing official is named, but rather on whether the authorizing
officer is described with such particularity that only one person fits the description.
This recasting of the issue indeed comports more closely to what is required by the
text of the Wiretap Act, which employs the word “identity,” because that term is defined
12

to mean “the distinguishing character or personality of an individual,” Merriam-Webster’s
Collegiate Dictionary, 616 (11th ed. 2007) (emphasis added), and not necessarily the name
of the individual. Thus, when the statute requires that an order include the “identity” of
the person authorizing an action, the word “identity” requires a description of the person
that is sufficient to distinguish that person from others, but not necessarily the person’s
name. In short, whether a wiretap order sufficiently identifies a person turns on whether
the description of the person leads to but one person.
By this understanding then, when the order identifies the Attorney General by title
only as the authorizing official, it is sufficient because the Attorney General refers to one
person and his or her name, even though not given, can readily be obtained. With this same
reasoning, then, an “identification” by reference in an order to a Criminal Division Deputy
Assistant Attorney General would not, without more, be sufficient because there are six
such persons, and such identification simply by title would not point to the one person who
authorized the application.
The information contained in the orders in this case, however, is more complete than
a mere reference to one of six Criminal Division Deputy Assistant Attorney Generals. Each
order identifies, as the authorizing official, the Deputy Assistant Attorney General of the
Criminal Division of the Department of Justice who signed off on the application leading
to the issuance of the order. And the specific official who authorized the application was
readily obtainable from that application, which was submitted to the judge with the
proposed order and given to Brunson with the executed order. Thus, both the authorizing
judge and Brunson had a description sufficient to readily identify the one official who
13

authorized the application for the order. We therefore conclude that, in context, the orders
contained sufficient information to identify the authorizing officials.
Nonetheless, we would commend that, to avoid doubt and possible confusion in the
future, prosecutors include as a matter of prudence in wiretap orders both the title and name
of the official authorizing the application. And we understand that the Department of
Justice has already recognized this. Several years after the orders in this case were issued,
the Department sent a circular to all federal prosecutors recommending that the name of
the authorizing official be included in any proposed wiretap order.
At bottom, however, we conclude that the orders in this case, which identified the
officials authorizing the application by title and reference to the application where the
official’s name was included, were sufficient to satisfy the requirement of § 2518(4)(d).

C
Even were we to assume that perfect compliance with § 2518(4)(d) would entail the
inclusion of the authorizing official’s name in the text of the order itself, as Brunson argues,
we would conclude that the lack of such specificity is a defect that does not amount to an
insufficiency. See Dahda, 138 S. Ct. at 1497–99 (holding that while “the core concerns
test” applied in United States v. Giordano, 416 U.S. 505, 527 (1974), to § 2518(10)(a)(i)
should not be applied to § 2518(10)(a)(ii) (the provision before us), still “not every defect
[in complying with subparagraph (ii)] results in an insufficiency”). While Dahda did not
undertake to describe the scope of defects that would render wiretap orders insufficient
under § 2518(10)(a)(ii), it did cite to cases where technical errors were held not to require
14

suppression under that subparagraph. See United States v. Moore, 41 F.3d 370, 375–76
(8th Cir. 1994) (order missing judge’s signature); United States v. Joseph, 519 F.2d 1068,
1070 (5th Cir. 1975) (order identifying the wrong Government official as authorizing the
application); United States v. Vigi, 515 F.2d 290, 293 (6th Cir. 1975) (same). Here, the
wiretap orders, even if not in perfect compliance, nonetheless substantially complied with
the requirements of § 2518(4)(a)–(e), as the statute does not specifically require the name
of the person authorizing the application. Each application was in fact appropriately
approved; each order disclosed by title the authorizing official; and both the court issuing
the wiretap orders and later Brunson had actual knowledge of the name of each authorizing
official. In these circumstances, the identification in the wiretap orders did not deny
Brunson any information required by § 2518(4)(a)–(e). We would therefore conclude that
the absence of the official’s name from the face of the orders, even if technically a defect,
is not the type of defect that would render these orders facially insufficient.

III
Finally, even if the wiretap orders were thought to be facially insufficient, Brunson’s
motion to suppress would have appropriately been denied under the good faith doctrine
articulated in United States v. Leon, 468 U.S. 897 (1984).
In Leon, the Supreme Court held that evidence “seized in reasonable, good-faith
reliance on a search warrant that is subsequently held to be defective” is not subject to
suppression, despite the existence of a constitutional violation. 468 U.S. at 905. The Court
noted that the social costs of excluding evidence to vindicate Fourth Amendment rights are
15

high, as the exclusion impedes the truth-finding functions of the judge and jury and
possibly results in guilty defendants going free or receiving reduced sentences. See id. at
907.

And suppressing evidence “obtained in objectively reasonable reliance on a

subsequently invalidated search warrant” has only “marginal or nonexistent” benefits in
terms of deterring Fourth Amendment violations. Id. at 922. Thus, the Court observed,
where an officer acts in good faith, the benefits of suppressing the fruits of an invalid
warrant are outweighed by the harms of doing so. See id.
While Leon carved out an exception to the judicially created exclusionary rule and
this case involves a statutory exclusionary rule, we note that when Congress enacted the
Wiretap Act, it did so against the backdrop of analogous Fourth Amendment jurisprudence.
Indeed, the accompanying Senate Report specifically states that the statutory suppression
remedy was designed to “largely reflect[] existing law.” S. Rep. No. 90-1097 (1968), as
reprinted in 1968 U.S.C.C.A.N. 2112, 2185. Moreover, Leon’s rationale is equally
applicable in the statutory suppression context — “when law enforcement officers have
acted in objective good faith or their transgressions have been minor,” requiring
suppression of evidence confers an unearned benefit on a guilty defendant that “offends
basic concepts of the criminal justice system.” Leon, 468 U.S. at 908. Moreover, in the
same vein, the Supreme Court has specifically recognized that not every defect in a wiretap
order justifies exclusion under the Wiretap Act’s suppression provision. See Dahda, 138
S. Ct. at 1498.
Thus, we conclude that where law enforcement officials have acted reasonably and
in good faith to comply with the central substantive requirements of the Wiretap Act, as is
16

the case here, suppression is not justified. See Moore, 41 F.3d at 376–77 (holding that the
good faith exception applied to the government’s interception of communications pursuant
to a wiretap order that was missing the judge’s signature); United States v. Brewer, 204 F.
App’x 205, 208 (4th Cir. 2006) (per curiam) (unpublished) (holding in the alternative that
law enforcement officers “were entitled to rely on facially valid wiretap orders pursuant to
the good faith exception”). Even though the wiretap orders submitted by the government
did not contain the names of the authorizing officials, the accompanying applications did.
More importantly, there was plainly no attempt to obfuscate the identity of the relevant
officials, nor did the government fail to secure proper authorization for the applications
submitted. And at the time the orders in question were issued in 2013, no court of appeals
had held that a failure to include the name of the authorizing officer in the wiretap order
rendered such an order substantively deficient. Indeed, numerous courts had considered
challenges to similar orders and held that communications intercepted under those orders
were not subject to suppression. See, e.g., United States v. Gray, 521 F.3d 514, 526–28
(6th Cir. 2008) (holding that the omission of the name of the authorizing officer from a
wiretap order was a technical defect that did not require suppression); United States v.
Callum, 410 F.3d 571, 576 (9th Cir. 2005) (same); United States v. Fudge, 325 F.3d 910,
918 (7th Cir. 2003) (same); United States v. Radcliff, 331 F.3d 1153, 1162 (10th Cir. 2003)
(same) (noting that “[e]very circuit to consider the question has held that § 2518(10)(a)(ii)
does not require suppression if the facial insufficiency of the wiretap order is no more than
a technical defect” (quoting Moore, 41 F.3d at 374)). Finally, when the D.C. Circuit
declined to follow this line of cases, holding in 2016 that the omission of the authorizing
17

officer’s name rendered a wiretap order facially insufficient for purposes of
§ 2518(10)(a)(ii), see Scurry, 821 F.3d at 8–12, the Department of Justice changed its
practice to ensure that future orders did contain the name of the authorizing official.
In short, any defects in orders issued prior to 2016 resulted from good faith efforts
to comply with the requirements of the Wiretap Act and not from intentional wrongdoing
and therefore would not require suppression of the evidence obtained.

IV
Addressing his sentencing, Brunson contends that the First Step Act, which was
enacted on December 21, 2018, during the pendency of this appeal, invalidates the
mandatory life sentence imposed by the district court. As he correctly notes, § 401 of the
FSA reduced the mandatory term of life imprisonment without release previously required
under 21 U.S.C. § 841(b)(1)(A) to a mandatory 25-year term. See FSA § 401(a)(2)(A)(ii).
But because Brunson was sentenced prior to the FSA’s enactment, the benefits of § 401
are not available to him. Section 401(c) of the Act, addressing the section’s “Applicability
to Pending Cases,” provides that § 401 “shall apply to any offense that was committed
before the date of enactment of this Act, if a sentence for the offense has not been imposed
as of such date of enactment.” FSA § 401(c) (emphasis added).
Brunson argues that the statutory language should be construed to extend the Act’s
coverage to “non-final criminal cases pending on direct review at the time of enactment.”
This reading, however, is contrary to the plain meaning of the statute’s text, which on its
face restricts applicability to defendants whose sentences had not yet been “imposed” at
18

the time of the Act’s enactment, and a sentence is “imposed” when it is pronounced by the
sentencing court, i.e., the district court. Indeed, we recently recognized as much in United
States v. Jordan, 952 F.3d 160 (4th Cir. 2020), which held that § 403 of the FSA, which
contains the same retroactivity provision as does § 401, did not apply to a defendant whose
sentence was pronounced — but not finalized after direct appeal — prior to the FSA’s
enactment. See id. at 172.
As we noted in Jordan, this common-sense understanding is consistent with
numerous provisions of federal law that govern sentencing in the district court. See, e.g.,
18 U.S.C. § 3553(a) (listing “factors to be considered [by the district court] in imposing a
sentence” emphasis added)); 21 U.S.C. § 851(b) (“If the United States attorney files an
information under this section, the court shall after conviction but before pronouncement
of sentence . . . inform [the defendant] that any challenge to a prior conviction which is not
made before sentence is imposed may not thereafter be raised to attack the sentence”
(emphasis added)). Unlike district courts, a court of appeals does not “impose” sentences.
Its role is limited to affirming or vacating the sentence imposed by the district court. See
Jordan, 952 F.3d at 172 (“[I]mposing sentences is the business of the district courts, while
courts of appeals are tasked with reviewing them” (quoting United States v. Aviles, 938
F.3d 503, 510 (3d Cir. 2019))).
To support his argument to the contrary, Brunson relies on United States v. Clark,
110 F.3d 15, 17 (6th Cir. 1997), where the court held that 18 U.S.C. § 3553(f) (the safety
valve statute applying “to all sentences imposed on or after” the date of enactment) applied
to cases pending on appeal when the statute was enacted. In reaching this conclusion, the
19

Sixth Circuit reasoned that the safety valve statute should be applied broadly and noted that
“[a] case is not yet final when it is pending on appeal. The initial sentence has not been
finally ‘imposed’ within the meaning of the safety valve statute because it is the function
of the appellate court to make it final after review or see that the sentence is changed if in
error.” Id. But in Jordan, we rejected a request to extend Clark to § 403 of the FSA, noting
that we could find “no other circuit court decision applying [Clark’s] definition of
‘imposed’ even under the statute at issue in Clark, let alone applying it in any other
context.” Jordan, 952 F.3d at 173. In short, we find Clark’s reasoning unpersuasive and
decline to extend its holding to § 401 of the FSA.
Brunson also argues that a “presumption of retroactivity” requires applying the
FSA’s amendments to sentences that were not final at the time of enactment, citing Bradley
v. School Bd. of City of Richmond, 416 U.S. 696, 710–12 (1974). But Bradley stands only
for the proposition that a change in the law may be given effect in pending cases even in
the absence of clear legislative intent. Id. at 715. Here, in contrast to Bradley, Congress
did expressly provide for retroactive application of the changed law, but it limited that
application to defendants whose sentences had not been imposed as of the date the law was
enacted.
At bottom, we conclude that the FSA does not provide any benefit to Brunson.
*

*

*

The judgment of the district court is accordingly
AFFIRMED.

20

DIANA GRIBBON MOTZ, Circuit Judge, dissenting:
The plain language of 18 U.S.C. § 2518(4), as the Supreme Court recognized in
Dahda v. United States, 138 S. Ct. 1491 (2018), forecloses any holding that the wiretap
orders relied on here were facially sufficient. Accordingly, I must dissent.

I.
A.
Title III of the Omnibus Crime Control and Safe Streets Act of 1968, codified at 18
U.S.C. § 2510 et seq. (“Title III”), has the “dual purpose” of protecting individual privacy
and setting forth uniform conditions for law enforcement interception of wire and oral
communications. S. Rep. No. 90-1097, at 66 (1968). The statute balances the need to
combat serious crime and the equally pressing imperative of safeguarding individual
privacy from government overreach. See id. at 66–67. It does so by prohibiting all
interstate interceptions of wire, oral, and electronic communications with limited
exceptions, such as for law enforcement to investigate specified types of serious crime. Cf.
United States v. Hoffman, 832 F.2d 1299, 1306 (1st Cir. 1987) (“[I]n a society which values
privacy and the rights of the individual, wiretapping is to be distinctly the exception — not
the rule.”).
Title III specifies the obligations of both law enforcement and the authorizing court.
It requires law enforcement to submit a detailed wiretap application to a court of competent
jurisdiction and delineates the specific information that must be contained in that
application. 18 U.S.C. § 2518(1). Only after a court independently makes the findings
21

required by the statute can it issue an order authorizing the interception. Id. § 2518(3).
Title III also separately lists the information that must appear in the court’s order. Id.
§ 2518(4). It is the court’s order, not the application, that authorizes the interception and
provides a defense to civil penalties for unauthorized snooping. Id. § 2520(d)(1). An
application without a subsequent court order is, legally speaking, no more than a piece of
a paper. 1
B.
An individual may move to suppress evidence obtained via wiretap and any
information derived therefrom if: “(i) the communication was unlawfully intercepted; (ii)
the order of authorization or approval under which it was intercepted is insufficient on its
face; or (iii) the interception was not made in conformity with the order of authorization or
approval.” 18 U.S.C. § 2518(10).
The Supreme Court has interpreted § 2518(10) on several occasions, most recently
in Dahda v. United States, 138 S. Ct. 1491 (2018). See also United States v. Donovan, 429
U.S. 413 (1977); United States v. Chavez, 416 U.S. 562 (1974); United States v. Giordano,
416 U.S. 505 (1974). Together, these cases clarify the distinction between an “unlawful[]”
wiretap under § 2518(10)(a)(i) and a wiretap authorized by an order that is “insufficient on
its face” under § 2518(10)(a)(ii).
As Giordano established and Dahda reaffirmed, a wiretap is “unlawful[]” within
the meaning of subparagraph (i) if the wiretap violates those Title III statutory provisions

1

There is a limited exception, not relevant here, for specific “emergency
situation[s]” enumerated by the statute. 18 U.S.C. § 2518(7).
22

that implement the wiretap-related congressional concerns motivating passage of Title III.
Giordano, 416 U.S. at 527 (“[W]e think Congress intended to require suppression where
there is failure to satisfy any of those statutory requirements that directly and substantially
implement the congressional intention to limit the use of intercept procedures to those
situations clearly calling for the employment of this extraordinary investigative device.”). 2
Following Giordano, courts assessing whether a wiretap was “unlawfully intercepted”
pursuant to subparagraph (i) look to whether the Department of Justice has substantially
complied with Title III’s requirements and will suppress the wiretap evidence only if the
alleged impropriety implicates those core concerns. This assessment has become known
as the “core concerns” test. Dahda, 138 S. Ct. at 1498 (referring to the “core concerns
test”).
For many years, some courts applied Giordano’s core concerns test not only to
evaluate whether a wiretap was “unlawful[]” under subparagraph (i) but also to determine
whether it was “insufficient on its face” under subparagraph (ii). So long as the Department
of Justice substantially complied with Title III’s core concerns, these courts deemed
suppression unwarranted, even where the defendant challenged an order as facially
insufficient under subparagraph (ii). For example, most courts refused to find wiretap
orders “insufficient on [their] face” under subparagraph (ii) where the order failed to name
the authorizing official, so long as the wiretap application had in fact been authorized by

2

A wiretap may also be unlawful under subparagraph (i) if it violates the
Constitution, for example where the Government lacks probable cause. See Giordano, 416
U.S. at 525–26.
23

an appropriate official. See, e.g., United States v. Callum, 410 F.3d 571, 576 (9th Cir.
2005); United States v. Radcliff, 331 F.3d 1153, 1160–63 (10th Cir. 2003); United States
v. Traitz, 871 F.2d 368, 379 (3d Cir. 1989). 3
In Dahda, the Supreme Court implicitly overruled those cases, holding that
Giordano’s “core concerns” analysis applies only to subparagraph (i), and does not apply
to the question of whether a wiretap order is “insufficient on its face” under subparagraph
(ii). Dahda, 138 S. Ct. at 1498 (concluding “that subparagraph (ii) does not contain a
Giordano-like ‘core concerns’ requirement”).
The Dahda Court reasoned that, unlike the assessment of whether a wiretap is
unlawful under subparagraph (i), which looks to whether the Government has substantially
complied with the statute’s objectives, the assessment of whether an order is facially
insufficient under subparagraph (ii) is a mechanical test: if the order does not contain the
information required by § 2518(4), it is facially insufficient:
It is clear that subparagraph (ii) covers at least an order’s failure to include
information that § 2518(4) specifically requires the order to contain. An
order lacking that information would deviate from the uniform authorizing
requirements that Congress explicitly set forth, while also falling literally
within the phrase “insufficient on its face.”
Id. (emphases added) (citations omitted).

3

Reflecting confusion on this issue, prior to Dahda, some courts failed to explain
whether they refused to suppress pursuant to subparagraph (i) or subparagraph (ii),
presumably because they applied the same core concerns test regardless of the statutory
basis for suppression. See, e.g., United States v. Gray, 521 F.3d 514, 526–28 (6th Cir.
2008); United States v. Fudge, 325 F.3d 910, 918 (7th Cir. 2003).
24

In sum, when assessing facial sufficiency under subparagraph (ii), Giordano’s “core
concerns” test is irrelevant. Rather, Dahda’s test controls. Id. The Dahda analysis is
simple: when an order lacks the information that 2518(4) specifically requires, it must be
suppressed as insufficient on its face. See also United States v. Scurry, 821 F.3d 1, 8, 13
(D.C. Cir. 2016) (adopting the mechanical test to determine whether an order is facially
sufficient).

II.
Given that § 2518(4)(d) specifically requires that a wiretap order contain the
“identity . . . of the person” who authorized the wiretap application, a straightforward
application of Dahda requires us to hold that failure to provide the “identity of the person”
who authorized the application in the orders challenged here is a defect that renders them
“insufficient on [their] face” under subparagraph (ii) of § 2518(10)(a). Accordingly, the
district court should have suppressed the wiretaps and any “evidence derived therefrom.”
18 U.S.C. § 2518(10)(a).
A.
At oral argument, the Government twice acknowledged that it was the position of
the Department of Justice that § 2518(4)(d)’s requirement that an order containing the
“identity . . . of the person” means the name of the Deputy Assistant Attorney General
official who authorized the order, which is precisely what the orders here lacked. Oral Arg.
at 19:49–20:41; see also id. at 33:21–34:22. I see no reason to construe “identity” to mean
anything different.
25

But, despite its concession, the Government claims that omission of the names of
the authorizing officials here is without consequence because the orders assertedly
incorporate by reference their names from the applications. According to the Government,
“an order that does not itself identify the authorizing official by name, but incorporates a
wiretap application that does name the official, complies with Section 2518(4)(d).” Supp.
Br. at 16. The Government maintains that because the orders at issue here cross-reference
the wiretap applications, the judge and the defendant could verify that the Department of
Justice had complied with Title III’s requirements.
There are several problems with this argument. The first is that it is in considerable
tension with Title III itself. If incorporation by reference were acceptable, the entire order
would need be little more than a single sentence incorporating the application by reference.
This would eviscerate Title III, which enumerates in § 2518(1) the precise information
required to be contained in an application and separately enumerates in § 2518(4) the
precise information required in an order. At bottom, the Government’s argument amounts
to an assertion that a wiretap application can be a substitute for a wiretap order, an approach
that Congress plainly rejected. I cannot accept the Government’s unwitting koan that an
order can be facially sufficient by referring to an external document. As the D.C. Circuit
explained in factually indistinguishable circumstances:
Title III’s facial sufficiency inquiry is limited to the four corners of the wiretap
order. There is something incongruous about an interpretation that would let
extrinsic documents transform an order that is “insufficient on its face” into one
that is sufficient “on its face.” Further, the Government’s interpretation would
allow it, in every case, to satisfy Title III’s order identification requirement by
satisfying its application identification requirement, effectively rendering
section 2518(4)(d) superfluous.
26

Scurry, 821 F.3d at 9 (citations omitted).
Moreover, the Government’s theory rests on the unfounded assumption that the
applications and orders necessarily move together. The D.C. Circuit remarked on the
problem with the logic in this argument: the “complete overlap” between the information
required in the order and application “makes little sense if Congress expected the order
always to travel with the application.”

Id. at 10.

Moreover, as the Government

acknowledged at oral argument, while it aims to keep these documents together, it cannot
guarantee that they remain so. When asked if there was a uniform, mandatory method of
keeping the wiretap applications and orders together, the Government’s answer was
“probably not.” Oral Arg. at 35:35–36:56. Accordingly, the Government has not and
cannot establish that the underlying applications always move with the orders.
In the case at hand, the Government implies that its incorporation by reference
theory would cause no harm because these documents traveled together. Supp. Br. at 16–
17 (explaining both the issuing judge and Brunson were provided with the applications,
which included the authorizing officials’ names). In fact, it is not clear that they did in this
case, 4 or that it is uncommon for problems to arise related to accounting for these papers
over time. See Traitz, 871 F.2d at 376 (noting that draft order was missing a page when it

4

Brunson’s pro se suppression motion suggests that he did not receive all of the
orders at issue in this case, although he implies that he received all the applications. See
Mot. Suppress 2 ECF No. 1969 (referencing applications, including July 31 application,
but noting that he “never received [the July 31st, 2013 order] in discovery materials”); id.
at 6 (“No order for original interception for target phones #7, #8, #9 from July 31, 2013.”).
27

was signed by the district judge). Thus, I am unable to accept an incorporation by reference
argument that is based on the unproven assumption that these documents remain together.
Additionally, despite the Government’s argument that specific language in the
orders incorporates the applications by reference, I am skeptical that this language clearly
does so. Compare the language in the orders, prepared by the Government, which the
Government now asserts incorporates the applications by reference: “pursuant to an
application authorized by an appropriate official” and “full consideration having been
given to the matters set forth therein,”; with the explicit incorporation by reference in one
of the Government’s wiretap applications in this case: “[o]n the basis of the allegations
contained in this application and on the basis of the Affidavit of Special Agent [omitted],
which is fully incorporated herein by reference.” (emphasis added). As evidenced by the
latter example, the Government knows how to clearly incorporate by reference when it
intends to do so. The language in the orders hardly constitutes a clear statement of intent
to incorporate the applications by reference.
B.
Rather than relying on the Government’s incorporation by reference theory, the
majority offers a theory of its own, one that the Government has expressly disavowed. Oral
Arg. at 33:21–34:48. The majority’s starting point is the Government’s asserted belief that
an order may identify the Attorney General as the authorizing official by title alone. 5
According to the majority, this reasoning means that every authorizing official can be

5

I express no view regarding whether an order that identifies the Attorney General
by title but not name would be sufficient on its face, as that question is not presented.
28

identified by title rather than by name, so long as the official “is described with such
particularity that only one person fits the description.” Maj. Op. at 12. Thus, the majority
concludes that “whether a wiretap order sufficiently identifies a person turns” not on that
person’s name, but “on whether the description of the person leads to but one person.” Id.
at 13.
The problem with this argument, as the Government recognizes, is that the title of
the authorizing officials other than the Attorney General do not “lead to but one person” —
which is why the Government concedes that the most natural understanding of the
“identity” in this context means name, not title. As the D.C. Circuit explained in rejecting
the majority’s argument:
The text is plain and unambiguous; every wiretap court order must identify
the individual high-level Justice Department official who . . . authorized the
underlying wiretap application. This requirement may be met where the
language points unambiguously to a unique qualified officer holding a
position that only one individual can occupy at a time, but here there is more
than one Deputy Assistant Attorney General and no individual Deputy is
identified on the face of [the challenged] wiretap orders. This would appear
to end this part of our inquiry.
Scurry, 821 F.3d at 8–9.
In sum, the majority’s definitional sleight of hand cannot cover up its flawed logic:
there simply is not enough information on the face of these orders to sufficiently ascertain
the “identity” of the specific official at the Department of Justice who authorized the
applications. The majority can claim that the orders provided enough of a description to
“lead to but one person” only by reference to the applications. See Maj. Op. at 13
(reasoning that because the orders referred to the official “who signed off on the
29

application,” and “the specific official who authorized the application was readily
obtainable from that application,” the orders were facially sufficient). In other words, this
is but a variation of the Government’s incorporation by reference theory. It fails for the
same reasons. An order cannot be sufficient on its face by reference to an external
document.
The other problem with the majority’s analysis is its suggestion that the
Government’s substantial compliance with the core concerns of the statute is relevant to
the inquiry concerning whether the orders are sufficient on their face. For example, the
majority explains that the wiretap orders were sufficient in part because “the applications
were in fact appropriately authorized,” id. at 3, and the orders were not defective because
“[e]ach application was in fact appropriately approved” and “both the court issuing the
wiretap orders and later Brunson had actual knowledge of the name of each authorizing
official,” id. at 15. But, as the Government has recognized, the Supreme Court in Dahda
explicitly rejected an approach that assesses facial sufficiency by reference to whether the
Government has substantially complied with Title III; instead, Dahda directs courts to
determine whether, on its face, a wiretap order contains the information required by
§ 2518(4). See Dahda, 138 S. Ct. at 1498. 6
Dahda’s explicit disavowal of the core concerns test in determining facial
sufficiency under subparagraph (ii) was no anomaly. It has been the Supreme Court’s

6

The Government conceded at oral argument that, after Dahda, “substantial
compliance” could not cure a facially insufficient warrant, as Dahda explicitly rejected
applying a “core concerns” test in the context of 2518(10)(a)(ii). Oral Arg. at 23:30–23:50.
30

consistent position for more than forty years that each of the three subparagraphs requiring
suppression under § 2518(10)(a) must be given independent effect. See Dahda, 138 S. Ct.
at 1498 (“The underlying point of Giordano’s limitation was to help give independent
meaning to each of § 2518(10)(a)’s subparagraphs. It thus makes little sense to extend the
core concerns test to subparagraph (ii) . . . .”); Giordano, 416 U.S. at 527 (“[I]t does appear
that paragraphs (ii) and (iii) must be deemed to provide suppression for failure to observe
some statutory requirements that would not render interceptions unlawful under paragraph
(i).”). Dahda’s embrace of a mechanical test when assessing facial sufficiency under
subparagraph (ii) is necessary to give independent meaning to each of § 2518(10)(a)’s three
bases for suppression. In stating that the orders here are facially sufficient in part because
they were in fact appropriately authorized, the majority has conflated errors under
subparagraph (i) with errors under subparagraph (ii). 7

Consequently, the majority’s

analysis will sow unnecessary confusion among district courts and litigants alike.

7

Resisting the conclusion that Dahda resolves this case, the majority maintains that
the failure of the orders to contain the names of the authorizing officers is merely a
technical defect, and Dahda “did not address the consequence of a technical defect that
might arise by a failure to comply precisely with § 2518(4).” Maj. Op. at 10. Dahda did
leave open the question of how broadly lower courts should construe the class of errors
that result in facial insufficiency. 138 S. Ct. at 1498. But the error here is squarely
controlled by the Dahda Court’s explicit reasoning. See id. (“It is clear that subparagraph
(ii) covers at least an order’s failure to include information that § 2518(4) specifically
requires the order to contain.” (emphasis added)). The Court’s unambiguous language thus
forecloses the argument that the kind of error here — the omission of the identity of the
authorizing official, which is one of the pieces of information that § 2518(4) requires —
can ever result in a facially sufficient order. In short, the majority’s supposition that this
type of error was unresolved in Dahda is baseless.
31

III.
Perhaps recognizing the logical contortions required of its holding, the majority (in
what is plainly dicta) also adopts the Government’s alternative argument that we should
apply the good faith exception set forth in United States v. Leon, 468 U.S. 897 (1984).
Invocation of Leon in the Title III context is misguided. The exception is relevant in cases
of constitutional suppression; it is a judicially created exception to a judicially created
remedy to protect a constitutional right.

See id. at 906.

This, however, is not a

constitutional case; the statute controls, and the statute does not provide a good faith
exception. Cf. Giordano, 416 U.S. at 524 (“The issue [of suppression] does not turn on the
judicially fashioned exclusionary rule aimed at deterring violations of Fourth Amendment
rights, but upon the provisions of Title III . . . .”). Rather, the statute directs a court to
suppress orders that are “insufficient on [their] face.”

18 U.S.C. § 2518(10)(a)(ii).

Accordingly, as the Government itself acknowledged at oral argument, the Supreme Court
has never imported the good faith exception into Title III. Oral Arg. at 28:26–28:34.
In opining to the contrary, the majority relies in part on its observation that, with
respect to Title III, Congress legislated “against the backdrop of analogous Fourth
Amendment jurisprudence” and that Congress intended the suppression remedy to “largely
reflect[] existing law.” Maj. Op. at 16. This is uncontroversial — as far as it goes. But
Congress enacted Title III almost twenty years before the Supreme Court issued Leon.
Thus, in so legislating, Congress could hardly have intended Title III to reflect the Leon
rule that did not yet exist. See United States v. Rice, 478 F.3d 704, 713 (6th Cir. 2007)
32

(“Congress obviously could not know that Fourth Amendment search and seizure law
would embrace a good-faith exception sixteen years after the passage of Title III, and the
language from the Senate Report indicates a desire to incorporate only the search and
seizure law that was in place at the time of the passage of Title III.”). Nor has Congress
subsequently amended Title III to provide for such an exception.
The majority also leans on Leon’s policy rationales to support its conclusion that we
should import Leon into the Title III context. The majority believes it is unfair to law
enforcement to “confer[] an unearned benefit on a guilty defendant” for a mistake made in
good faith. Maj. Op. at 16. Importing this reasoning is into Title III is a fundamentally
flawed exercise. Whether to “confer[]” such a “benefit” is not a choice that we are free to
make. The decision whether to suppress evidence, and in what circumstances, constitute
policy judgments already expressly made by Congress. We do not have the authority to
disregard those judgments. See Nickey Gregory Co., LLC v. AgriCap, LLC, 597 F.3d 591,
608 (4th Cir. 2010) (Niemeyer, J.) (“The judiciary, however, should not insert itself in these
policy matters by questioning or debating legislative judgments, as it is constituted only to
comprehend, interpret, and apply what Congress has duly provided.”).

IV.
The Government’s last refuge, an argument that the majority does not adopt, is that,
if suppression is warranted and the good-faith exception does not apply, any error was
harmless because of the “overwhelming, independent” non-wiretap evidence against

33

Brunson. Supp. Br. at 9. Assuming harmless error applies, 8 however, examination of the
trial record renders laughable the Government’s contention that “the intercepted wire
communications were a small part of the [G]overnment’s overall case.” Supp. Br. at 22.
In fact, the record reveals that the intercepted calls were unquestionably the linchpin
of the Government’s case. The calls were repeatedly played for the jury and were discussed
throughout the trial by the Government and its witnesses (including Greenan, Wright,
Ravenel, Gates, and Davis). See, e.g., JA 88–91 (FBI agent testifying about contents of
wiretaps), 94–95 (same); JA 96 (intercepted wiretap audio recording played for the jury),
97 (same), 99 (same), 102 (same), 233 (same), 234 (same), 248 (same), 256 (same), 259
(same), 262 (same), 264 (same), 266 (same), 270 (same), 271 (same), 273 (same), 280
(same), 284 (same), 285 (same), 288 (same), 290 (same), 291 (same), 406 (same), 427
(same), 467 (same), 511 (same). Given the Government’s repeated use of and reference to

8

Some out-of-circuit precedent suggests harmless error applies in the Title III
context. See, e.g., United States v. Quintero, 38 F.3d 1317, 1331 (3d Cir. 1994). We have
previously declined to apply harmless error to a Title III case but have never squarely
determined whether it would be appropriate to do so. See United States v. Crabtree, 565
F.3d 887, 892 (4th Cir. 2009). However, the conclusion that a harmless error analysis is
appropriate is neither obvious nor compelled by controlling authority. Federal Rule of
Criminal Procedure 52(a) generally requires courts to apply harmless error to all trial
errors. See Neder v. United States, 527 U.S. 1, 7 (1999). See generally Kotteakos v. United
States, 328 U.S. 750, 760–65 (1946). But Rule 52(a) is a congressional command that can
be overridden by statute. In Zedner v. United States, 547 U.S. 489 (2006), the Court
rejected the Government’s argument that harmless error applied in the Speedy Trial Act
context. Id. at 507–09. The critical test, according to the Court, was Congress’s intent,
shown in part through that statute’s “detailed requirements . . . regulating ends-of-justice
continuances.” Id. at 508. Of course, the Speedy Trial Act is not Title III. I assume
harmless error applies here, as Brunson appears to have conceded the point, but I note that,
following Zedner, there is at least a colorable argument as to whether harmless error has
been displaced by Title III’s detailed requirements governing suppression.
34

these tapes throughout the trial, it is impossible to conclude that discussing and playing
these incriminating audio recordings did not substantially influence the jury’s view of
Brunson’s culpability. This certainly is sufficient to conclude that the error was not
harmless. See Kotteakos v. United States, 328 U.S. 750, 765 (1946) (“The inquiry cannot
be merely whether there was enough [evidence] to support the result, apart from the phase
affected by the error. It is rather, even so, whether the error itself had substantial influence.
If so, or if one is left in grave doubt, the conviction cannot stand.”).

V.
For the foregoing reasons, I respectfully dissent. 9

9

Because I believe Brunson’s conviction should ultimately be vacated on the count
related to his First Step Act motion, I do not address that claim.
35

B

FILED: July 31, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4696
(3:14-cr-00604-JFA-18)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
JOEY LAMOND BRUNSON, a/k/a Flex
Defendant - Appellant
___________________
JUDGMENT
___________________
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

C

USCA4 Appeal: 18-4696

Doc: 85

Filed: 08/27/2020

Pg: 1 of 1

FILED: August 27, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4696
(3:14-cr-00604-JFA-18)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
JOEY LAMOND BRUNSON, a/k/a Flex
Defendant - Appellant
___________________
ORDER
___________________
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Wilkinson, and
Judge Motz.
For the Court
/s/ Patricia S. Connor, Clerk

D

3:14-cr-00604-JFA

Date Filed 09/25/18

Entry Number 2145

Page 1 of 6

AO 2458 (SCDC Rev.02/18) Judgment in a Criminal Case Sheet 1

UNITED STATES DISTRICT COURT
District of South Carolina
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

VS.

JOEY LAMONT BRUNSON a/k/a "Flex"

Case Number: 3: 14-604 (018 JF A)
USM Number: 91646-071
Timothy W. Murphy, Esq.(Appointed)
Defendant's Attorney

THE DEFENDANT:

•

was found guilty on count(s) 1-12 of the 2nd superseding indictment on 3/22/18 after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense

Offense Ended

Count

21 USC 846
21.usc 84l(a)(l);(b)(l)(A)
21 USC 843(b) and 18:2
21 USC 843(b) and 18:2
21 USC 843(b) and 18:2
21 USC 843(b) and 18:2
21 USC 843(b) and 18:2
18 USC l 956(a)(l)(A)(i);
(a)(l )(B)(i);(h)
21 USC 84l(a)(l); (b)(l)(C);
(b )(1 )(D)
18 USC 922(g)(l); 924(a)(2)
18 USC 924(c)(l)(A)(i)
18 USC 1621

Please see 2 nd superseding indictment

3/3/17

1

8/6/13
10/11/13
10/12/13
10/16/13
10/18/13
6/30/14

2
3
4
5
6&7
8

Please see 2 nd superseding indictment

3/3/17

9

Please see 2 nd superseding indictment
Please see 2 nd superseding indictment
Please see 2 nd superseding indictment

3/3/17
3/3/17
3/9/17

10
11
12

Please
Please
Please
Please
Please
Please

see 2 nd
see 2 nd
see 2 nd
see 2 nd
see 2 nd
see 2 nd

superseding indictment
superseding indictment
superseding indictment
superseding indictment
superseding indictment
superseding indictment

The defendant is sentenced as provided in pages 2 through §. of this judgment. The sentence is imposed pursuant to
the Sentencing Reform Act of 1984.

D
D

Count(s)

dismissed on the motion of the United States.

Forfeiture provision is hereby dismissed on motion of the United States Attorney.

It is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of any material changes in economic
circumstances.

Joseph F. Anderson, Jr., United States District Judge
Name and Title of Judge

September 25 20 I 8
Date

3:14-cr-00604-JFA

Date Filed 09/25/18

Entry Number 2145

Page 2 of 6

AO 2456 (SCDC Rev. 02/18) Judgment in a Criminal Case

Page2

Sheet 2 - Imprisonment

DEFENDANT: JOEY LAMONT BRUNSON
CASE NUMBER: 3: 14-604

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for
a total term of LIFE plus Sixty (60) months. This term consists of LIFE as to count 1; Forty-eight (48) months
each as to counts 2, 3, 4, 5, 6, and 7; Two Hundred Forty (240) months as to count 8; Three Hundred Sixty (360)
months as to count 9; One Hundred Twenty (120) months as to count 10; Sixty (60) months as to count 12, said
terms to run concurrently with each other; and Sixty (60) months as to count 11, said term to run consecutively
to all of the aforementioned counts.

•
•
D

The court makes the following recommendations to the Bureau of Prisons:
For defendant to be evaluated for participation in the following programs: Education and Vocational
Training; Financial or Consumer Credit Counseling; and Cognitive Behavioral Treatment.

The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for this district:
D at _ _ _ _ _ _ _ D a.m. D p.m. on _ _ _ _ _ _ _ _ _ _ _ __
Das notified by the United States Marshal.

D

The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:
D before 2 p.m. on _ _ _ _ _ _ _ _ _ _ __
Das notified by the United States Marshal.
D as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this Judgment as follows:

Defendant delivered on _ _ _ _ _ _ _ _ _ _ _ _ _ _to _ _ _ _ _ _ _ _ _ _ _ _ __
at._ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __, with a certified copy of this judgment.
UNITED STATES MARSHAL

BY--------------------DEPUTY UNITED STATES MARSHAL

3:14-cr-00604-JFA

Date Filed 09/25/18

Entry Number 2145

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 3 - Supervised Release

Page 3 of 6

Page3

DEFENDANT: JOEY LAMONT BRUNSON
CASE NUMBER: 3: 14-604

SUPERVISED RELEASE
If the defendant is released from imprisonment, the defendant shall be on supervised release for a term of Ten (10) years. This term
consists of Ten (10) years as to count l; One (I) year each as to counts 2, 3, 4, 5, 6, and 7; Three (3) years each as to counts 8, IO and
12; Six (6) years as to count 9; and Five (5) years as to count 11, said terms to run concurrently with each other.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.
7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
• The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
o You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
o You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. §20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
• You must participate in an approved program of domestic violence. (check if applicable)

•

The defendant must comply with the standard conditions that have been adopted by this court as well as with any other conditions
listed below:

1.

The defendant shall satisfactorily participate in a substance abuse testing program, as approved by the U.S.
Probation Office. If able, the defendant shall contribute to the costs of such a program in an amount
determined reasonable by the court at the time of the testing and, in any event, shall cooperate in securing
any applicable third-party payment, such as insurance or Medicaid.

3:14-cr-00604-JFA

Date Filed 09/25/18

Entry Number 2145

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 3A- Supervised Release

Page 4 of 6

Page4

DEFENDANT: JOEY LAMONT BRUNSON
CASE NUMBER: 3: 14-604

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.
5.

6.
7.

8.

9.
10.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of
your release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a
different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how
and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming aware ofa change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer
excuses you from doing so. If you plan to change where you work or anything about your work (such as your position or job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at
least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has
been convicted of a felony, you must not knowingly communicate or interact with that person without first getting the
permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything
that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer
may require you to notify the person about the risk and you must comply with that instruction. The probation officer may
contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at www.uscourts.gov.

Defendant's Signature _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

Date _ _ _ _ _ _ _ _ _ _ __

3:14-cr-00604-JFA

Date Filed 09/25/18

Entry Number 2145

Page 5 of 6

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 5 - Criminal Monetary Penalties

Page 5

DEFENDANT: JOEY LAMONT BRUNSON
CASE NUMBER: 3: 14-604

CRIMINAL MONETARY PENALTIES
The defendant shall pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

JVTA Assessment*

Restitution

$1,200.00

D

The determination of restitution is deferred until _ _ _ _ _ _ . An Amended Judgment in a Criminal Case(A0245C) will be
entered after such determination.

D

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.

Name of Payee

TOTALS

Total Loss*

$_ _ _ _ __

Restitution Ordered

Priority or Percentage

$_ _ _ _ _ _ __

•

Restitution amount ordered pursuant to plea agreement

•

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of judgment, pursuant to 18 U.S.C. §3612(f). All of the payment options on Sheet 5 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. §3612(g).

•

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
•
The interest requirement is waived for the • fine • restitution.
•
The interest requirement for the • fine • restitution is modified as follows:

*Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
**Findings for the total amount of losses are required under Chapters 109A, 110, 1 lOA, and 113A of Title 18 for offenses committed
on or after September 13, 1994, but before April 23, 1996.

3:14-cr-00604-JFA

Date Filed 09/25/18

Entry Number 2145

Page 6 of 6

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 6 • Schedule of Payments

Page 6

DEFENDANT: JOEY LAMONT BRUNSON
CASE NUMBER: 3:14-604

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A

•

Lump sum payment of$ 1,200.00 special assessment due immediately, balance due
D not later than _ _ _ _ _ _ _ _ _ _ __, or
D in accordance with

D C,

DD, or

DE, or D Fbelow: or

B

D

Payment to begin immediately (may be combined with

D C,

D D, or

D F below); or

C

D

Payment in equal _ _ _ _ (weekly, monthly, quarterly) installments of=-_ _ _ _ _over a period of _ _ __
(e.g., months or years), to commence_____ (e.g., 30 or 60 days) after the date of this judgment; or

D

D

Payment in equal _ _ _ _ _ _ _ _ _(e.g., weekly, monthly, quarterly) installments of:;:__ _ _ _ _over a
period of ____(e.g., months or years), to commence _ _ _ _ _ (e.g., 30 or 60 days) after release from
imprisonment to a term of supervision; or

E

D

Payment during the term of supervised release will commence within (e.g., 30 or 60 days) after release from imprisonment.
The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F

D

Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons' Inmate
Financial Responsibility Program, are made to the clerk of court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
D

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

D

The defendant shall pay the cost of prosecution.

D

The defendant shall pay the following court cost(s):

•

The defendant shall forfeit the defendant's interest in the following property to the United States:

As directed in the Preliminary Order of Forfeiture, filed 4/3/18

and the said order is incorporated herein as part of this judgment.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

E

3:14-cr-00604-JFA

Date Filed 09/13/18

Entry Number 2132

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION
United States of America,

CR. No. 3:14-cr-00604-JFA

Plaintiff,
vs.
Joey Lamont Brunson,

ORDER

Defendant.

This matter is before the Court upon Joey Lamont Brunson’s (“Defendant”) Motion for
New Trial. On August 20, 2018, Defendant filed an untimely Motion for New Trial alleging that
the Supreme Court’s ruling in Dahda v. United States, 138 S. Ct. 1491 (2018), constitutes a
material and substantive change in the law. (ECF No. 2112). On August 20, 2018, the Government
filed a Response in Opposition to the Motion. (ECF No. 2123). For the reasons set forth herein,
Defendant’s Motion is denied.
Defendant is one of four defendants named in a 12-count second superseding indictment,
which was filed in this Court on March 22, 2017. (ECF No. 1706). Before trial, on February 28,
2018, Defendant, who was then proceeding pro se, filed a motion arguing that evidence of
telephone calls via wiretaps should be suppressed because the Government’s failure to include the
authorizing official’s name in the Orders authorizing interception of wire and electronic
communications rendered each Order “insufficient on its face” under 18 U.S.C. § 2518(10)(a)(ii).
This Court, after receiving briefing from both parties and hearing argument on Defendant’s
suppression motion, determined that 18 U.S.C. § 2518(4)(d) had been substantially complied with
because the Orders were based on Applications that identified the authorizing official and thus

1

3:14-cr-00604-JFA

Date Filed 09/13/18

Entry Number 2132

Page 2 of 2

suppression was not warranted. Trial began on March 19, 2018, and on March 22, 2018, the jury
returned a verdict convicting Defendant on all counts of the second superseding indictment.
This Court finds that Defendant’s Motion for New Trial is untimely by well over four
months. Pursuant to Federal Rule of Criminal Procedure Rule 33(b)(2), a motion for a new trial
that is not grounded on newly discovered evidence “must be filed within 14 days after the verdict
or finding of guilty.” Fed. R. Crim. Pro. 33(b)(2). Defendant was convicted on March 22, 2018
and did not file this Motion until August 20, 2018. Additionally, this Court finds that Defendant
has not shown that Defendant failed to act because of “excusable neglect.” See Pioneer Inv. Servs.
Co. v. Brunswick Assocs. Ltd. P’ship, 507 U.S. 380, 395 (1993). For this reason, Defendant’s
Motion is denied.
Further, this Court also finds that Defendant’s Motion for New Trial should still be denied
because the Supreme Court’s ruling in Dahda v. United States does not disturb this Court’s
previous ruling that it was a technical defect to not list the authorizing official’s actual name in the
Orders when the Orders were all accompanied by an Application with the authorizing official’s
name. Defendant’s Motion for New Trial merely reasserts the same issue from his suppression
motion that this Court previously ruled on. The Court finds no basis for disturbing its prior ruling.
In any event, Defendant has preserved his right to appeal through direct appeal and thus
the issue will be presented to the Fourth Circuit Court of Appeals.
For the foregoing reasons, Defendant’s Motion for New Trial (ECF No. 2112) is denied.
IT IS SO ORDERED.

September 13, 2018
Columbia, South Carolina

Joseph F. Anderson, Jr.
United States District Judge

2

